•v .*
*'■

# 20-5135
IN

THE

SUPREME COURT OF THE UNITED STATES

JAMES BOWELL,

PETITIONER

vs .
STATE BAR OF CALIFORNIA,
CALIFORNIA

RESPONDENTS)

SUPREME

COURT

PROOF OF SERVICE
28 U.S.C. § 1746
I, James BoWell, do swear and declare that on this date below I
served the enclosed: PETITION FOR REHEARING RULE 44 ON THE MERITS WITH
CERTIFICATION PRESENTED IN GOOD FAITH EXTRAORDINARY CIRCUMSTANCES EXIST.
Party's counsel, and on every other person required to be served, paid
by the Institution Donovan State Prison CDCR placing into envelopes for
U.S. Mail delivery addressed as follows:
1. THE STATE BAR OF CALIFORNIA
Robert G. Retana, Attorney
James J. Chang,, Attorney
180 Howard Street
San Francisco, CA 94105

2. THE STATE BAR OF CALIFORNIA
Tyrone Sandoval, Attorney
Alex Hackert, Attorney.
845 S. Figueroa Street
Los Angeles, CA 90017

3. CALIFORNIA SUPREME COURT
Tani G. Cantil-Sakauye
Chief Justice, et al.
350 McAllister Street, #1295
San Francisco, CA 94102-4797

4. OFFICE OF THE DISTRICT ATTORNEY
Post-Conviction Litigation Discovery
Habeas Corpus Litigation Team
320 W. Temple Street, #540
Los Angeles, CA 90012

I, declare under the penalty of perjury that the foregoing is
true and correct.
Dated: October 14, 2020
BoWell, De
126.

rant

